                             Office of the Inspector General

September 25, 1998

Kenneth S. Apfel

Commissioner of Social Security



Acting Inspector General



Social Security Administration’s Controls over Master Beneficiary Record Special

Payment Amounts



The attached final report presents the results of our review, “Social Security

Administration’s Controls over Master Beneficiary Record Special Payment Amounts”

(A-01-96-62002). Our objective was to determine whether the Social Security

Administration’s internal controls are adequate to ensure that overpayments recorded

to the Master Beneficiary Record Special Payment Amount field are identified and

pursued for collection.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide them within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Pamela J. Gardiner, Assistant Inspector General for Audit, at (410) 965-9700.





                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     THE SOCIAL SECURITY
  ADMINISTRATION’S CONTROLS
   OVER MASTER BENEFICIARY
   RECORD SPECIAL PAYMENT
          AMOUNTS

  September 1998   A-01-96-62002



AUDIT REPORT

                    EXECUTIVE SUMMARY


OBJECTIVE

The objective of this audit was to determine whether the Social Security
Administration’s (SSA) internal controls are adequate to ensure that overpayments
recorded to the Master Beneficiary Record (MBR) Special Payment Amount (SPA) field
are identified and pursued for collection.

BACKGROUND

SSA uses the SPA field on the MBR to hold overpayment, underpayment, and deferred
payment data. A SPA overpayment can be either a valid overpayment (such as an
amount paid in excess of that due to an individual) or an incorrect payment (such as an
amount paid incorrectly based on the individual’s current year estimated earnings).
The amount remains in the SPA field until an event occurs which causes SSA to
change the individual’s benefit payment status. If a change in the individual’s payment
status causes an alert to be issued on the case, a technician manually reviews the
case to determine whether the amount can be resolved.

If SSA determines that the individual’s overpayment is valid, the amount due is posted
to the Recovery of Overpayments, Accounting, and Reporting System (ROAR) for
control and tracking until the amount is fully repaid or otherwise resolved and the SPA
field is cleared. However, should recoupment be interrupted by another change in the
individual’s payment status, the balance can be transferred from ROAR to a new SPA
field. If the individual later returns to current pay status or another source for
recoupment is found, SSA will again attempt recovery. At that point, the overpayment
is transferred back to the ROAR system until resolved and the SPA field is cleared of
the related overpayment data.

In addition to reviewing alerted SPA cases, SSA conducts annual SPA clean-up
projects to ensure that MBR SPA overpayments are pursued for collection or other
resolution. Depending on SSA’s national objectives for the annual project, the project
is designed to alert a special selection of SPA field entries which SSA staff are required
to review and resolve.

RESULTS OF REVIEW

SSA’s internal controls over MBR SPA fields were not adequate to ensure that all
overpayments were pursued for collection. In conducting our review, we identified


                                            i
66,490 SPA overpayments worth $117.6 million. Based on a sample of 100 MBR SPA
data fields with a total value of $161,488, 19 fields contained valid overpayments
($48,264) which should have been pursued for collection, 45 SPA fields ($37,533)
housed erroneous data which should have been cleared, and 36 entries correctly
remained in the SPA fields at the time of our review.

Nineteen SPA fields contained valid overpayments which should have been pursued
for collection prior to our audit. Projecting our sample results to the population, at a
90 percent confidence level, we estimate that $11.2 million in valid SPA overpayments
were unresolved as of December 31, 1996.

Forty-five cases contained erroneous data that should no longer be in the SPA fields.
Projecting our sample results to the population, at a 90 percent confidence level, we
estimate that $26.3 million in erroneous SPA entries remained on the MBR as of
December 31, 1996. The original overpayments in 31 of the 45 cases had been
recovered or resolved, but the SPA fields had not been cleared. The remaining
14 erroneous SPA cases resulted from various processing errors, but were not cleared.

SSA’s annual SPA clean-up projects did not ensure that all valid SPA overpayments
were identified and that erroneous SPAs were cleared. Specifically, since the SPA
clean-up projects do not include all beneficiaries, valid overpayments made to
individuals in suspended benefit payment status were not reviewed and resolved.
Further, program service center (PSC) staff could not tell us if any specific cases
included in this audit had been alerted in recent annual SPA clean-ups. However, they
acknowledged that some sample cases met the selection requirements and should
have been alerted for SPA field clean-up. Since SSA does not control and follow up on
alerted cases, all cases alerted for the projects may not have been handled correctly or
reviewed at all.

RECOMMENDATIONS

We recommend that SSA:

   •	 transfer to ROAR and initiate recovery of the estimated $11.2 million in SPA
      overpayments identified during our review in which no actions have been taken;

   •	 delete the estimated $26.3 million in erroneous SPA data fields maintained on
      the MBR as potential overpayments;

   •	 instruct PSC staff to routinely delete erroneous SPA data in all recovered or
      otherwise resolved overpayment cases;

   •	 revise the SPA clean-up project to include cases involving individuals in
      suspended benefit payment situations;


                                            ii
   •	 add controls over alerts to the SPA clean-up project so that SSA can be assured
      that alerted cases are resolved; and

   •   consider deleting SPA entries over 10 years old.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Although SSA
did not specifically address five of our recommendations, the Agency did state that all
of the issues identified in our report will be resolved by improving the SPA clean-up
operation and reconciliation effort.




                                           iii
                         TAB L E O F C O N TE N TS


                                                                                                              Page


EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 4


     UNRESOLVED OVERPAYMENTS................................................................... 4


     ERRONEOUS SPA DATA ................................................................................ 5


    SPA CLEAN-UP PROJECTS ............................................................................ 6


    •    Suspended Payment Status......................................................................... 6

    •    Control of SPA LIFE Alerts........................................................................... 7


RECOMMENDATIONS........................................................................................... 9


APPENDICES

Appendix A - Sampling Methodology
Appendix B - Analysis of Payment Status Codes
Appendix C - SSA’s Comments
Appendix D - Major Report Contributors
Appendix E - SSA Organizational Chart
                                  INTRODUCTION


OBJECTIVE

The objective of this audit was to determine whether SSA’s internal controls are adequate
to ensure that overpayments recorded to the MBR SPA field are identified and pursued for
collection.

BACKGROUND

Under title II of the Social Security Act, SSA is responsible for implementing the Old Age,
Survivors and Disability Insurance (OASDI) program. The OASDI program is designed to
provide retirement benefits to insured individuals who have reached the minimum
retirement age, survivors’ benefits to dependents of insured wage earners in the event the
family wage earner dies, and disability benefits to disabled wage earners and their
families. In administering the OASDI program, SSA is required to resolve overpayments
made to beneficiaries, specifically, by recovering, waiving, or writing-off the overpayment.
SSA recovers overpayments by direct refund from the individual or by making adjustments
to the individual’s current or prospective benefits. Overpayments, underpayments, or
deferred payments are housed in the MBR SPA field. A SPA overpayment can be either a
valid overpayment (such as an amount paid in excess of that due an individual) or an
incorrect payment (such as an amount paid incorrectly based on the individual’s estimated
earnings for the current year).

Once a potential overpayment has been identified, it is placed in the MBR SPA field until
the amount has been confirmed and determined to be a valid overpayment (a legally
                      1
defined overpayment ). This determination can be automatically made or may require
manual review. When SSA’s computer system recognizes that an overpayment is valid,
the recovery process is initiated, tracked and controlled automatically. However, in some
cases, manual intervention is required to verify the SPA amount and establish whether it
is a valid overpayment. Such cases will stay in the SPA field until reviewed. When the
manual review occurs, the technician may find that the SPA field contains: (1) erroneous
data, (2) a determination cannot be made, or (3) a valid overpayment. Erroneous SPA
data is deleted so that the SPA field will not be selected for review again. If a
determination cannot be made, the SPA field is left as is, and will be reviewed again at a
later date. Valid overpayments are transferred to ROAR for control and tracking until the
amounts are recovered or otherwise resolved. When this transfer to ROAR occurs, the
SPA field is cleared. If repayment is interrupted, making further recovery indefinite, the
balance is transferred from ROAR and a new SPA field is created until the individual’s

1
  Legally defined overpayments are overpayments attributable to legally defined conditions, such as,
incorrect month of entitlement, incorrect computations, multiple entitlements, felony suspensions, etc.


                                                      1

benefit payments resume or another source for recoupment is found. If this occurs, the
overpayment is posted back to the ROAR system, recovery resumes, and the SPA field is
again cleared.

                        Figure 1: Processing of Potential Overpayments


                                     Potential
                                   Overpayment


                                                  Automatic or Manual
                                                       Transfer If
                                                  Overpayment is Valid
                                                     (SPA Deleted)


                                     SPA                                   ROAR

               Review Determines                 Repayment Interrupted -
                SPA is Erroneous                    New SPA Created



                                     SPA                                   Overpayment
                                   Cleared                                 Recovered



Whenever valid overpayments are transferred to ROAR, technicians are to follow up by
clearing the overpayment data from the respective MBR SPA field so that the SPA will not
have to be reviewed again. Inasmuch as the transfer of valid overpayments from the SPA
field for recovery is essential to the tracking and resolution of overpayments, clearing the
SPA field after such a transfer is necessary to maintain MBRs with current, accurate
benefit information and to ensure erroneous SPAs will not waste time and effort to correct
in the future.

In addition to routine processing of SPA field alerts, SSA conducts annual MBR SPA
clean-up projects to resolve certain SPA overpayments not yet under ROAR control. SSA
has run annual SPA LIFE2 clean-up projects since 1988. As of the 1996 project, MBR
SPA overpayments established from 1978 through 1994 had been covered in SPA clean-
up projects. The 1996 SPA clean-up project occurred in June 1997. These annual clean-
up projects involve a special selection of cases having potential overpayments in MBR
SPA fields. The selected SPAs are identified by alerts which generally describe the
collection possibilities in the case.
2
    SPA LIFE is the name of the software program used in the annual MBR SPA data field clean-up projects.


                                                     2
When analyzing SPA LIFE alerts, technicians are expected to review each SPA field entry
and alert to determine the collection possibilities in the case or whether the SPA entry has
been resolved. SPA LIFE alerts are issued to the PSC responsible for reviewing the case,
but there is no follow-up on the specific cases alerted to ensure that they are reviewed.

SCOPE AND METHODOLOGY

In conducting our audit, we identified 66,490 SPA overpayments, valued at approximately
$117.6 million. From this population, we selected a stratified, random sample of 100 SPA
overpayments. See Appendix A for details on our sampling methodology.

To conduct our review, we:

•	 analyzed the validity of SPA overpayment data, including actions SSA took before the
   end of 1996 to recover or resolve the overpayments;

•	 determined why erroneous SPA data had not been corrected and/or deleted from the
   SPA fields timely;

•   reviewed SSA’s policies and procedures regarding SPA overpayments;

•   reviewed MBR and Payment History Update System records for our sampled cases;

•	 interviewed various operations and program analysts and other responsible PSC staff;
   and

•   reviewed procedures for the annual SPA clean-up projects.

Our audit only included a review of those internal controls related to MBR SPA field
processing. Our audit work was performed between February 1997 and February 1998 in
Boston, Massachusetts. This audit was conducted in accordance with generally accepted
government auditing standards.




                                             3

                              RESULTS OF REVIEW


                    Figure 2: 100 SPAs Reviewed                    Based on a sample of 100 MBR

                        Total Value $161,488                       SPA data fields with a total value of

                                                                   $161,488, 19 fields contained valid

                                                                   overpayments ($48,264) which should

         Valid
     Overpayments
                                                                   have been pursued for collection,

          19                                                       45 SPA fields ($37,533) housed

                                                  Erroneous        erroneous data which should have been

                                                      45
                                                                   cleared, and 36 entries correctly

                                                                   remained in the SPA fields at the time of

                                                                   our review.


                                                                   UNRESOLVED OVERPAYMENTS
                Correct
                  36
                                                    Of the 100 cases reviewed, we identified
                                                    19 SPA fields which contained valid
overpayments totaling $48,264 which needed to be resolved as of December 31, 1996,
our audit cut-off date. Projecting the results of our sample to the population, we estimate
that at the end of 1996, SSA needed to resolve 13,742 valid overpayments posted to MBR
SPA fields, totaling $11.2 million. Specifically, the 19 overpayments were not pursued
because:

•	 Overpayments were made to three individuals whose benefit payments were
   suspended. In two cases, payments were suspended because of imprisonment;
   however, SSA overpaid the individuals prior to learning of the incarcerations. In one of
   these two cases, a technician stated that recoupment would not be attempted from this
   individual and the amount would stay in the SPA field until he returns to current pay
   status, despite the requirement to transfer all valid overpayments to ROAR. In the
   other prisoner case, SSA had recovered most of the funds overpaid to the individual,
   but SSA staff did not include a portion of the overpayment in the amount recovered. In
   the third case, benefit payments to the individual were suspended in August 1985
   because a check had been returned due to an address problem. However, SSA paid
   the individual a subsequent $642 check for the following month that was never
   returned and has not been resolved.

•	 SSA had overpaid nine individuals whose benefit payments had been terminated. In
   five of these cases, the beneficiaries were eligible for benefits under both their own
   MBR and another individual’s MBR. These overpayments were not resolved when
   benefit payments stopped on one MBR and a new MBR was established under the



                                                              4

   individual’s own earning history. Technicians working the cases failed to transfer the
   amounts overpaid on the old records to the individuals’ new MBRs. In one of these
   cases the individual was receiving benefits since January 1993, but no action had
   been taken to recover the overpayment.

•	 In seven cases, the SPA entries related to incorrect payments which should have been
   transferred to ROAR by the time of our audit. These overpayments were related to
   work by the beneficiaries. In cases where a beneficiary works and that work may
   affect the individual’s entitlement to receive benefits or payment amount, the individual
   files an estimate of current year earnings. When the estimated earnings cause a
   potential overpayment, a SPA entry is created and remains on the MBR until a final
   earnings report is received. In these seven cases, earnings reports were or should
   have been received and the overpayments should have been pursued for recovery by
   the time of our audit. However, in all seven cases, the overpayments remained in the
   SPA field and SSA had not pursued recovery even though the earnings reports were
   for years as far back as 1991.

When the outstanding, valid overpayments identified in this audit were brought to SSA’s
attention, they initiated recovery of some long-standing overpayments. Recovery actions
consisted of posting the overpayments to ROAR on the individuals’ current records or
requesting refunds from individuals no longer receiving benefit payments. In fact, after we
identified these 19 cases and reported them to PSC staff, SSA initiated recovery for 16 of
the overpayments. The remaining three cases were being processed by PSC staff at the
end of our review. (See Appendix B for further details on these 19 overpaid cases.)

ERRONEOUS SPA DATA

Of the 100 cases, 45 SPA fields, totaling $37,533, held erroneous data and should no
longer exist. Projecting the results of our sample to the population, we estimate that at the
end of 1996, 23,070 SPA fields contained $26.3 million in erroneous overpayment entries.
In 31 of the 45 cases, valid overpayments no longer existed because the SPAs had been
recovered or resolved, but technicians did not clear the SPA fields. Based on information
found in existing records, the remaining 14 cases were not overpayments at all or they
were the result of processing errors. In many instances, technicians failed to clear the
SPA field when overpayment balances were transferred to the individuals’ current
entitlement records, after benefit payments stopped on the subject records.

Eleven of the 45 erroneous SPAs occurred more than 10 years ago. In seven cases, the
overpayments occurred from 1967 through 1983, and all had been repaid or adjusted on
the individuals’ own Social Security number records. However, the SPA fields had never
been cleared of the resolved overpayments. In four erroneous SPA cases, two of the
individuals died in the mid-1970’s, and the other two overpayments could not be




                                              5

confirmed because existing data was unreliable or SSA applied its 10-year bar to
adjustment policy.3

Although the reasons behind the individual erroneous SPAs varied, it is evident that
clearing the SPA fields, after the cases have been worked and the overpayments
recovered or resolved, is not being performed routinely. Technicians consider the
important work done once the overpayment is in recovery and clearing the SPA field
afterwards is but a housekeeping task. Also, given their workload and resources, some
supervisors rate the task of manually clearing the SPA fields a low priority item.

Leaving erroneous data in the SPA fields affects the accuracy and currency of MBR data,
even though it does not affect the amount of valid SPA overpayments. SPA fields can
possibly hold either overpayments or erroneous data, requiring technicians to manually
review each case in order to make a determination. The absence of indicator codes on
the MBR to help technicians quickly understand the reason for the SPA overpayment
makes resolving SPA field data more time-consuming, inefficient, and hard to justify,
especially if SPAs turn out to be erroneous. In 45 of our 100 cases, the SPA data was
erroneous, resulting in wasted time spent clearing SPA entries.

SPA CLEAN-UP PROJECTS

SSA’s SPA clean-up projects are not meeting the goals of identifying valid overpayments
and clearing erroneous SPA data. Specifically, because the SPA clean-up projects to
date have not included any overpayments made to individuals in suspended benefits
payment status, some valid overpayments remain in the field indefinitely pending the
individuals’ return to pay status. In addition, since SPA LIFE alerts are not monitored,
there is no assurance that alerted cases are worked correctly or at all.

Suspended Payment Status

SSA’s annual SPA clean-up project includes alerts for SPA overpayments that meet
certain time frames, dollar thresholds, and collection possibilities. The criteria are set
nationally each year and the same selection criteria are used in SPA clean-up operations
at all PSCs for that year. However, since 1988, when SPA clean-up projects began, none




3
  SSA is barred from recovering an overpayment by adjustment of benefits more than 10 years after the
debt accrued, if within that 10-year period, SSA had the means to collect the overpayment, but took no
action to recover it.


                                                    6

of the projects have had alerts for SPA overpayments if the individuals’ benefits are
suspended (LAF4 S). There are many reasons why an individual’s benefits may be
suspended, such as annual retirement test, prisoner suspension, or incorrect address. In
some suspension situations, the SPA overpayment may become a valid overpayment prior
to the individual returning to current benefit payment status.

Our review identified valid overpayments with recovery potential in SPA fields on the
records of individuals whose benefits were suspended. However, these overpayments
were not included in SPA clean-up projects and were not identified by SSA. Reviewing
specific types of suspended cases as part of the SPA clean-up projects would result in
identifying valid overpayments as evidenced by our review. For example, in one case an
individual was in suspended payment status due to earnings. The suspension occurred in
September 1993, but the $18,909 SPA overpayment had not been reviewed and resolved
as of December 31, 1996. After we identified this case, a technician initiated recovery of
the overpayment by offsetting the beneficiary’s current benefit payments on another
record. We identified this case because our review included all SPA field entries,
including those for suspended beneficiaries. However, the SPA LIFE project does not
include suspended cases and would not select this case for review. If suspended
payment status codes were included in the SPA LIFE project, this overpayment may have
been identified and recovered sooner.

Control of SPA LIFE Alerts

Many cases in our sample met the selection criteria for SPA LIFE projects and should
have been subject to SPA LIFE alerts. However, since SSA does not control or follow up
on SPA LIFE alerted cases, PSC staff did not know if the SPAs in our audit had ever been
alerted in a clean-up project. If any of our sample cases had been identified in one or
more clean-up projects, the SPA overpayments were not worked, or if they were worked,
they were not worked correctly.

PSC staff expressed to us some of the difficulties technicians encounter in working SPA
field data. The following problems contribute to SPA alerts not being worked or being
worked incorrectly.

•	 There is no quick way to determine from looking at the MBR, the reason for or type of
   overpayment being worked.

•	 When SPAs do not fit neatly into an overpayment definition, not enough guidance is
   available on how to handle the situation.


4
  LAF codes describe the payment status of the beneficiary and the reason for the status if other than
current pay. LAF S and LAF T indicate a beneficiary who is not currently receiving a regular benefit check
for the reason indicated by the adjacent number. For example, LAF S7 indicates benefit payments are in
suspense because of imprisonment, refusing vocational rehabilitation, or extending the trial work period.


                                                     7

•	 It is unclear how to handle SPAs that were established as a result of temporary
   deductions, but no annual reports have been filed.

•	 When case folders have been lost and the SPA overpayments cannot be confirmed,
   technicians do not know what to do.

Based on the lack of control over SPA LIFE alerts and the processing problems cited
above, SSA has no assurance that SPA clean up projects are meeting the goal of clearing
erroneous SPA data or that SPA LIFE alerted cases are worked correctly.




                                            8

                      RECOMMENDATIONS


We recommend that SSA:

   1. 	 transfer to ROAR and initiate recovery of the estimated $11.2 million in SPA
        overpayments identified during our review in which no actions have been taken;

   2. 	 delete the estimated $26.3 million in erroneous SPA data fields maintained on the
        MBR as potential overpayments;

   3. 	 instruct PSC staff to routinely delete erroneous SPA data in all recovered or
        otherwise resolved overpayment cases;

   4. revise the SPA clean-up project to include cases involving individuals in suspended
      benefit payment situations;

   5. 	 add controls over alerts to the SPA clean-up project so that SSA can be assured
        that alerted cases are resolved; and

   6. consider deleting SPA entries over 10 years old.

AGENCY COMMENTS

In response to our draft report, SSA agreed that where postings to the MBR are incorrect,
corrective actions should be taken. SSA did not specifically address five of our
recommendations, but agreed to review the existing SPA clean-up operation and
reconciliation effort to determine the best methodology for ensuring that SPA cases are
properly identified and controlled. This review will include a determination of why SPA
amounts are not correctly resolved and will propose actions necessary for resolving these
cases. SSA stated that all of the issues identified in our report will be resolved by
improving the SPA clean-up operation and reconciliation effort.




                                             9

APPENDICES

                                                                                    APPENDIX A


                SAMPLING METHODOLOGY


For this audit, we obtained a listing of all Master Beneficiary Record (MBR) Special
Payment Amount (SPA) overpayments in the Social Security Administration’s (SSA)
data base. We excluded from our sample population all SPA overpayments to
individuals who were in terminated benefit payment status due to death and all
individuals who had a date of suspension or termination (DOST) prior to
January 1, 1990. Our analysis was based on a sample of 100 cases. We randomly
selected 70 cases from STRATA 1, comprised of 60,244 overpayments made to
beneficiaries whose MBRs showed dates of suspension or termination from
January 1, 1990 through December 31, 1996. We randomly selected 30 cases from
STRATA 2, comprised of 6,246 overpayments made to beneficiaries with no DOST on
their MBRs. Almost all of the individuals in the latter group had their benefits payment
adjusted for dual entitlement.

                                                         STRATA 1        STRATA 2
                                                        DOST 1/1/90         NO
                                                         - 12/31/96        DOST             TOTAL
 Population size                                               60,244         6,246             66,490
 Population dollars                                     $110,802,360     $6,847,332      $117,649,692
 Sample size                                                       70            30                100
 Sample dollars                                             $150,219        $12,979          $161,488
 Number of sampled overpayments                                    15             4                 19
 Sample overpayment amount                                   $46,679         $1,585           $48,264
 Projected overpayment amount                                $12,979             $0           $12,979
 Projected number of overpayments                              12,909           833             13,742
 Precision of estimate                                                                         35.91%
 Projected overpayment amount                              $11,170,012              $0    $11,170,012
 Precision of estimate                                                                         74.51%
 Number of erroneous SPA entries                                     21             24              45
 Sample erroneous SPA amount                                    $28,279         $9,254        $37,533
 Projected erroneous SPA entries                                 18,073          4,997          23,070
 Precision of estimate                                                                         23.91%
 Projected erroneous SPA amount                            $24,337,543      $1,926,683    $26,264,226
 Precision of estimate                                                                         44.94%
Note: All precision figures were calculated at the 90 percent confidence level.

To analyze whether or not the overpayments could or should have been resolved by
our cut-off date (December 31, 1996), we determined whether there were any program
or legal constraints that would have precluded or delayed SSA from taking action to


                                                 A-1

recover the overpayments. To determine if SSA took action to resolve an overpayment

before the end of 1996, we used the criteria that if SSA was actively working the case

to establish the status at year-end 1996, or the overpayment was already validated and

SSA indicated a date when recovery would begin, we considered SSA to have initiated

appropriate action to resolve the overpayment as of December 31, 1996. Although

such overpayments had not yet been transferred to the Recovery of Overpayments,

Accounting and Reporting System at year-end 1996, the process was completed in

1997 and the overpayments were recovered.


Some overpayments had been left indefinitely in the SPA field pending clarification of

the individual’s payment status, corroboration of the amount owed, and/or SSA was

waiting for the individual to return to current pay status or until they identified another

resource before attempting recoupment. Such SPAs were also excluded from our

finding on valid overpayments. However, we included such SPAs in our finding if the

overpayment met the definition of a legally defined overpayment, the individual was in

current pay at some time after the overpayment occurred and before

December 31, 1996, and SSA had an opportunity to initiate recovery of the

overpayment in the interim, but did not.


In reviewing SPA overpayments that were more than 10 years old, we took into

consideration the prospects for their recovery, SSA’s policies regarding the 10-year bar

to adjustments, and certain administrative tolerances that restrict the amount of activity

SSA staff can use to recover certain classes of debts. The latter policy applies to

low valued debts when the average cost of recovering the overpayment equals or

exceeds the amount of the overpayment. Such recovery efforts would impede effective

or efficient administration of the program and we did not include such SPAs in the

amount SSA should have recovered by year-end 1996.





                                             A-2

                                                                                       APPENDIX B


ANALYSIS OF PAYMENT STATUS CODES


The following chart provides more detailed information related to specific
characteristics of the 19 overpaid cases:

      Payment
      Beneficiary
              Number of             SPA            Overpayment
                1

    Status Code      Code(s)1
                 Cases               Amount            Amount
         AD
            D
                        4                  $ 1,585            $ 1,585

         S2
           A, D
                      2                    3,706              3,706

         S4
            B
                        1                      286                143

         S6
            A
                        1                      642                642

         S7
           A, C
                      4                   33,149             24,902

         T4
           E, C
                     5                     2,412              2,412

         T5
            D
                       2                    14,833             14,874

               Total                             19                 $ 56,613           $ 48,264


In addition to analyzing the overpaid cases with regard to the payment status code, we
also reviewed the overall population of 66,490 Special Payment Amount (SPA)
overpayments identified during our review with regard to the payment status code and
amount of SPA field entries. This analysis is shown in the table on the following page.




1
   As defined in the Social Security Administration’s Program Operations Manual System, sections SM
00550.020 and SM 00550.010. Payment status codes found in overpaid cases: AD - Adjusted for dual-
entitlement; S2 – Suspended because the beneficiary worked in the U.S.; S4 – Suspended for failure to
have a child in care; S6 – Suspended for development of a better address; S7 – Suspended for prison,
trial work period or refusal of vocational rehabilitation; T4 – Terminated because of age attainment; and
T5 – Beneficiary is entitled to other benefits. General definitions of beneficiary codes found in overpaid
cases: A – beneficiary; B – spouse; C – child; D - widow/widower; and E – parent.


                                                   B-1
  Payment       Number of            SPA Field       Average SPA
Status Code5   SPA Entries            Amount           Amount
     AD              5,413           $   5,950,655       $ 1,099
      N                   1                  6,379           6,379

     PB                  13                  4,936             380

     PT                  19                  3,730             196

     SD              2,978               4,601,269           1,545

     SF                 168                 14,019              83
     SH                 890                797,616             896

     SJ                 117                187,385           1,602

     SK                  18                 77,055           4,281

     SL                   9                  3,665             407

     SP                 177                 57,823             327

     SW                  49                 94,304           1,925

     S0                  76                179,140           2,357

     S1                  96                243,745           2,539

     S2             28,015              58,629,061           2,093

     S3              1,676               2,592,107           1,547

     S4              1,138               1,183,215           1,040

     S5                   4                  5,990           1,498

     S6                 536                429,804             802

     S7              4,067              11,983,721           2,947
     S8                 806                498,500             618
     S9              1,871               2,779,393           1,486
     T&                  60                 66,738           1,112
     TA                   6                  2,200             367
     T0                 257                 68,478             266
     T2                  53                 15,679             296
     T3              1,531               1,893,881           1,237
     T4             11,349              12,875,939           1,135
     T5                 621                829,210           1,335
     T6              1,736               1,571,257             905
     T8              1,443               4,154,969           2,879
     T9                 124                111,013             895
      U                 210                752,579           3,584
     X1                  23                 17,723             771
     X5                   1                 10,587         10,587
     X7                 939              4,955,927           5,278
    Total           66,490           $ 117,649,692        $ 1,769





                              B-2

                  APPENDIX C


SSA’s COMMENTS

                                                                          APPENDIX D


        MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

Roger Normand, Director, Northern Program Audit Division

Rona Rustigian, Deputy Director

Toy H. Chin, Auditor-in-Charge




For additional copies of this report, please contact the Office of the Inspector General’s

Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number

A-01-96-62002.

                      APPENDIX E


SSA ORGANIZATIONAL CHART

